                    DEPART!''ilENT OF HEALTH t-\:~D HUMAN SERVICES


                OFFICE OF INSPECTOR GENERAL

                                      FEB 0 4 2014 


TO:            Mary K. Wakefield, Ph.D., R.N.
               Administrator
               Health Resources and Services Administration
                    /S/
FROM:          Stuart Wright
               Deputy Inspector General
                 for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Contract Pharmacy Arrangements in the
           340B Program, OEI-05-13-00431


This memorandum report describes selected covered entities' contract pharmacy
arrangements and their oversight of those arrangements to prevent (1) diversion of drugs
purchased through the 340B Drug Pricing Program to ineligible patients and (2) duplicate
discounts through Medicaid.

SUMMARY

Covered entities participating in the 340B Drug Pricing Program (hereinafter referred to
as the 340B Program) may contract with pharmacies to dispense drugs purchased through
the program (hereinafter referred to as 340B-purchased drugs) on their behalf. Such
pharmacies are referred to as contract pharmacies.

According to Health Resources and Services Administration (HRSA) guidance, covered
entities that establish contract pharmacy arrangements must oversee these arrangements
to prevent diversion of 340B-purchased drugs to ineligible patients and duplicate
discounts through Medicaid. Diversion and duplicate discounts are statutorily prohibited .
HRSA guidance recommends that covered entities' oversight activities include periodic
comparisons of covered entity records and contract pharmacy records, as well as annual
independent audits.

We found that contract pharmacy arrangements create complications in preventing
diversion, and that covered entities are addressing these complications in different ways .
The covered entities that we reviewed in our study use different methods to identify
340B-eligible prescriptions to prevent diversion in their contract pharmacy arrangements.
In some cases, these different methods lead to differing determinations of 340B eligibility
across covered entities. That is, two covered entities may categorize similar types of
prescriptions differently (i.e., 340B-eligible versus not 340B-eligible) in their contract
Page 2 – Mary K. Wakefield, Ph.D., R.N.


pharmacy arrangements. As a result, there is inconsistency within the 340B Program as
to which prescriptions filled at contract pharmacies are treated as 340B-eligible.

We also found that contract pharmacy arrangements create complications in preventing
duplicate discounts. Most covered entities in our study prevent duplicate discounts by
not dispensing 340B-purchased drugs to Medicaid beneficiaries through their contract
pharmacies, though difficulties exist with identifying beneficiaries covered by Medicaid
managed care organizations (hereinafter referred to as MCO Medicaid). However, some
covered entities that do dispense 340B-purchased drugs to Medicaid beneficiaries
through their contract pharmacies did not report a method to avoid duplicate discounts.

Additionally, we found that some covered entities in our study do not offer the
discounted 340B price to uninsured patients at their contract pharmacies. Neither the
340B statute nor HRSA guidance addresses whether covered entities must do so;
however, if covered entities do not, uninsured patients pay the full non-340B price for
their prescription drugs at contract pharmacies.

Finally, we found that most covered entities in our study do not conduct all of the
oversight activities recommended by HRSA. Although almost all covered entities
reported monitoring their contract pharmacy arrangements, the extent of such monitoring
varies. Few covered entities reported retaining independent auditors for their contract
pharmacy arrangements as recommended in HRSA guidance.

BACKGROUND

Although the majority of covered entities do not use contract pharmacies, the use of
contract pharmacies has increased rapidly over the past few years. Since 2010, the
percentage of all covered entities that use contract pharmacies has risen from 10 percent
to 22 percent. Moreover, the number of unique pharmacies serving as 340B contract
pharmacies has grown by 770 percent, and the total number of contract pharmacy
arrangements has grown by 1,245 percent.1

Additionally, recent HRSA audits of covered entities have found instances of diversion
and duplicate discounts related to contract pharmacies. Of the 32 covered entities for
which finalized HRSA audits resulted in adverse findings, 10 were cited for diversion
and/or duplicate discounts through contract pharmacies.2

The 340B Drug Pricing Program
1
  Office of Inspector General (OIG) analysis of HRSA’s covered entity database, June 2013. These growth
figures reflect calculations between March 5, 2010, and May 31, 2013. Covered entities may have multiple
health care delivery sites (represented by “parent” and “child” records in the database) as well as multiple
contract pharmacies. To account for this complexity and avoid duplicate counting, we have defined a
contract pharmacy arrangement as a unique association between a pharmacy and a covered entity “parent”
record, and have attributed all contract pharmacies associated with “child” records to their “parent” records.
Throughout this report, counts of covered entities represent unique “parent” records.
2
  Results of HRSA’s 340B Program audits as of January 8, 2014. Accessed at
http://www.hrsa.gov/opa/programintegrity/auditresults/results.html on January 13, 2014.


Contract Pharmacy Arrangements in the 340B Program (OEI-05-13-00431)
Page 3 – Mary K. Wakefield, Ph.D., R.N.


The Veterans Health Care Act of 1992 established the 340B Program in section 340B of
the Public Health Service Act (PHS Act).3 The 340B Program requires drug
manufacturers participating in Medicaid to provide discounted covered outpatient drugs
to certain eligible health care entities, known as covered entities. Congress intended for
the savings from 340B-purchased drugs “to enable [covered] entities to stretch scarce
Federal resources as far as possible, reaching more eligible patients and providing more
comprehensive services.”4 However, the 340B statute speaks only to covered entities’
eligibility and compliance; it does not specify how savings from the 340B Program
should be used.

Covered entities include community health centers and disproportionate share hospitals
(DSHs), among other provider types.5 As of May 31, 2013, 10,510 covered entities were
participating in the 340B Program, including 1,103 community health centers and
1,039 DSHs.6, 7

To participate in the 340B Program, covered entities must register with HRSA, the
agency responsible for administering the program. HRSA adds covered entities to its
database after receiving and approving their registration forms. Covered entities must
annually sign an agreement certifying that they meet 340B Program requirements and
that their information in the database is correct.8

Once approved, covered entities may purchase covered outpatient drugs under the
340B Program at or below the 340B ceiling price.9 340B ceiling prices are calculated
using a statutorily defined formula. Drug manufacturers that participate in Medicaid
must sell covered outpatient drugs to covered entities at or below the 340B ceiling price.10

Prohibition of diversion. Covered entities may dispense 340B-purchased drugs only to
eligible patients. According to HRSA’s patient definition, an individual is an eligible
patient “only if:

    (1) the covered entity has established a relationship with the individual, such that the
        covered entity maintains records of the individual’s health care; and
    (2) the individual receives health care services from a health care professional who is
        either employed by the covered entity or provides health care under contractual or
        other arrangements (e.g., referral for a consultation) such that responsibility for
        the care provided remains with the covered entity; and

3
  Veterans Health Care Act of 1992, P.L. 102-585 § 602; PHS Act § 340B; 42 U.S.C. § 256b.

4
  H.R. Rep. No. 102-384 (Part 2), at 12 (1992)(Conf. Rep.).

5
  42 U.S.C. § 256b(a)(4) enumerates the complete list of the types of entities eligible to become covered

entities. 

6
  OIG analysis of HRSA’s covered entity database, June 2013. 

7
  References to community health centers include all covered entities in HRSA’s covered entity database of 

the entity type Consolidated Health Center Program, which covers some additional providers. See 

http://opanet.hrsa.gov/OPA/CoveredEntityAcronyms.aspx. 

8
  42 U.S.C. § 256b(d)(2)(B)(i). 

9
  42 U.S.C. § 256b(a)(1).

10
   42 U.S.C. §§ 1396r-8(a)(1) and 256b(a)(1).



Contract Pharmacy Arrangements in the 340B Program (OEI-05-13-00431)
Page 4 – Mary K. Wakefield, Ph.D., R.N.


     (3) the individual receives a health care service or range of services from the covered
         entity which is consistent with the service or range of services for which grant
         funding or Federally-qualified health center look-alike status has been provided to
         the entity. DSHs are exempt from this requirement.”11

Dispensing 340B-purchased drugs to ineligible patients, a practice known as diversion, is
prohibited by law.12

Prohibition of duplicate discounts. Subjecting drug manufacturers to duplicate discounts
on 340B-purchased drugs is prohibited by law.13 Duplicate discounts occur when a drug
manufacturer pays a State Medicaid agency a rebate under the Medicaid drug rebate
program on a drug sold at the already-discounted 340B price.14 The risk of duplicate
discounts applies to MCO Medicaid as well as traditional fee-for-service Medicaid
(hereinafter referred to as FFS Medicaid) in States where drug manufacturers are paying
rebates on drugs dispensed through MCO Medicaid.15, 16

Covered entities choose whether to dispense 340B-purchased drugs to Medicaid
beneficiaries. Covered entities indicate their choice in HRSA’s covered entity database.
State Medicaid agencies use this information to identify Medicaid payments for
340B-purchased drugs and exclude those drugs from rebate requests to drug
manufacturers.17

340B Contract Pharmacies
Covered entities may contract with one or more pharmacies to dispense 340B-purchased
drugs on their behalf.18 A pharmacy dispensing 340B-purchased drugs on behalf of a
covered entity is referred to as a contract pharmacy.19


11
   61 Fed. Reg. 55156, 55157–55178 (October 24, 1996). 

12
   42 U.S.C. § 256b(a)(5)(B).

13
   42 U.S.C. § 256b(a)(5)(A)(i). 

14
   Under the Medicaid drug rebate program, drug manufacturers are required to pay rebates to State 

Medicaid agencies, which are calculated using a statutorily defined formula, for most covered outpatient

drugs. 42 U.S.C. § 1396r-8. 

15
   In general, MCO Medicaid differs from FFS Medicaid in that State Medicaid agencies prospectively pay 

managed care organizations a fixed monthly amount to provide care to beneficiaries, rather than paying

providers directly for care provided to beneficiaries. See 42 U.S.C. § 1396b(m). 

16
   Beginning in March 2010, drug manufacturers that participate in the Medicaid drug rebate program were 

required to pay rebates for covered outpatient drugs dispensed to individuals enrolled in MCO Medicaid if

the managed care organization is responsible for coverage of such drugs. 42 U.S.C. § 1396r-8(b)(1)(A).

Covered outpatient drugs dispensed through MCO Medicaid and subject to discounts under the 340B

Program are not subject to rebates under the Medicaid drug rebate program. 42 U.S.C. § 1396r-8(j)(1).

However, a previous OIG report found that not all States are collecting rebates on drugs dispensed through 

MCO Medicaid. OIG, States’ Collection of Rebates for Drugs Paid Through Medicaid Managed Care

Organizations, OEI-03-11-00480, September 2012.

17
   OIG, State Medicaid Policies and Oversight Activities Related to 340B-Purchased Drugs, 

OEI-05-09-00321, June 2011. 

18
   75 Fed. Reg. 10272, 10277 (March 5, 2010). 

19
   Covered entities may dispense 340B-purchased drugs through in-house pharmacies instead of or in 

addition to contract pharmacies. 



Contract Pharmacy Arrangements in the 340B Program (OEI-05-13-00431)
Page 5 – Mary K. Wakefield, Ph.D., R.N.


Contract pharmacy inventory models. Contract pharmacy arrangements generally use
one of two distinct inventory models: the pre-purchased inventory model or the
replenishment inventory model.20

In the pre-purchased inventory model, the covered entity’s 340B-purchased drugs are
kept in stock at the contract pharmacy. When filling prescriptions on behalf of the
covered entity, the contract pharmacy uses the covered entity’s 340B-purchased drugs.
When filling other prescriptions, the contract pharmacy uses its own non-340B-purchased
drugs.

In the replenishment inventory model, no 340B-purchased drugs are kept in stock at the
contract pharmacy. When filling prescriptions on behalf of the covered entity, the
contract pharmacy uses its own non-340B-purchased drugs. When a sufficient quantity
of a given drug has been dispensed on behalf of the covered entity, the covered entity
purchases that quantity of the drug at the discounted 340B price and has it delivered to
the contract pharmacy. This order of 340B-purchased drugs thus replaces or
“replenishes” the non-340B-purchased drugs originally dispensed on behalf of the
covered entity.

Contract pharmacy arrangements using the replenishment inventory model generally use
computerized tracking systems because the prescribed quantity of a drug rarely matches
the quantity by which the drug is ordered. For example, a drug may be prescribed in
quantities of 30 pills but ordered in quantities of 100 pills. Thus, a replenishment order
of 340B-purchased drugs can be placed only after the contract pharmacy has filled four
prescriptions for the drug (i.e., dispensed a total of 120 pills) on behalf of the covered
entity. This order replaces 100 of the 120 pills dispensed on behalf of the covered entity,
leaving 20 pills awaiting replenishment. Covered entities often hire companies known as
340B administrators (hereinafter referred to as administrators) to manage these tracking
systems.

Contract pharmacy billing process for insured patients. When contract pharmacies
dispense 340B-purchased drugs to patients with health insurance, they bill health insurers
for the 340B-purchased drugs dispensed. Pharmacies send insurance claims for
dispensed drugs to electronic transaction routing companies, which forward the claims to
the correct insurers. The routing companies use a combination of two codes from the
insurance claims—the Bank Identification Number and Processor Control Number
(hereinafter referred to as BIN/PCN)—to identify a patient’s health insurer and benefits.21




20
  OIG analysis of interviews with covered entities and administrators, 2013. 

21
  National Council for Prescription Drug Programs. Explanation of BIN/PCN. Accessed at

http://www.ncpdp.org/pdf/ExplanationofBIN.PCN.pdf on October 25, 2013. 



Contract Pharmacy Arrangements in the 340B Program (OEI-05-13-00431)
Page 6 – Mary K. Wakefield, Ph.D., R.N.


Covered Entity Oversight of Contract Pharmacy Arrangements
Covered entities must ensure that their contract pharmacy arrangements comply with the
340B statute and relevant HRSA guidance.22, 23 In guidance, HRSA generally directs
covered entities to:24

     (1) ensure that contract pharmacy arrangements prevent diversion of 

         340B-purchased drugs to ineligible patients; 

     (2) ensure that contract pharmacy arrangements do not result in duplicate discounts;
         and
     (3) conduct oversight of contract pharmacies to detect and remedy any instances of
         diversion, duplicate discounts, or other program violations.

HRSA has announced plans to issue formal regulations that will address program
elements, including its patient definition and contract pharmacy arrangements.25

Preventing diversion in contract pharmacy arrangements. To prevent diversion, covered
entities identify which prescriptions filled at their contract pharmacies will be categorized
as 340B-eligible (hereinafter referred to as 340B-eligible prescriptions). Covered entities
and their contract pharmacies may dispense 340B-purchased drugs only to individuals
who meet all applicable components of HRSA’s patient definition. Such individuals can,
however, fill any of their prescriptions at a covered entity’s contract pharmacy—not just
those that originate from the covered entity. As a result, if a covered entity does not
consider all prescriptions for an individual to be 340B-eligible, then in practice the
covered entity will have to determine 340B eligibility at the prescription level.
Administrators often assist covered entities in identifying 340B-eligible prescriptions.

Preventing duplicate discounts in contract pharmacy arrangements. To avoid duplicate
discounts in contract pharmacy arrangements, HRSA presents covered entities with two
options:

        (1) not dispensing 340B-purchased drugs to Medicaid beneficiaries through their
            contract pharmacies; or
        (2) dispensing 340B-purchased drugs to Medicaid beneficiaries through their
            contract pharmacies, and making an arrangement with the State Medicaid
            agency to prevent duplicate discounts. HRSA guidance notes that covered
            entities should inform HRSA of any such arrangement.26



22
   75 Fed. Reg. 10272, 10274–10278 (March 5, 2010). 

23
   Since the inception of the 340B Program, HRSA has generally used interpretive guidance and statements 

of policy, rather than formal rulemaking, to administer it. See 75 Fed. Reg. 10272, 10273 (March 5, 2010). 

However, HRSA recently issued a final rule addressing limited program elements. See 78 Fed. Reg. 

44016, 44027–44028 (July 23, 2013). 

24
   75 Fed. Reg. 10272, 10277–10278 (March 5, 2010). 

25
   HRSA. 340B Drug Pricing Program: Important Benefit, Significant Responsibility. Accessed at 

http://www.hrsa.gov/opa/update.html on January 22, 2014. 

26
   75 Fed. Reg. 10272, 10278 (March 5, 2010). 



Contract Pharmacy Arrangements in the 340B Program (OEI-05-13-00431)
Page 7 – Mary K. Wakefield, Ph.D., R.N.


Although covered entities indicate in HRSA’s covered entity database whether they
dispense 340B-purchased drugs to Medicaid beneficiaries, that indication does not
necessarily apply to their contract pharmacy arrangements.

HRSA’s recommended oversight activities. HRSA guidance recommends that covered
entities conduct oversight activities for their contract pharmacy arrangements, including
the following:27

        (1) monitoring their contract pharmacy arrangements by periodically comparing
            the covered entity’s prescribing records with the contract pharmacies’
            dispensing records to detect irregularities (e.g., potential diversion or duplicate
            discounts); and
        (2) retaining independent auditors to perform annual audits.

Although HRSA guidance states that covered entities are expected to conduct oversight
activities, it also states that “[t]he precise methodology utilized to ensure compliance and
obtain the necessary information is up to the covered entity given its particular
circumstances.”28 Covered entities must notify HRSA if they find that diversion or
duplicate discounts have occurred in their contract pharmacy arrangements.29

Related Office of Inspector General Work
In June 2011, OIG published a review of States’ reimbursement policies and oversight
related to 340B-purchased drugs. OIG found that States lacked pricing information
needed for oversight and that nearly half of States did not have written 340B policies.30

In September 2012, OIG published a review of States’ collection of rebates for covered
outpatient drugs dispensed through MCO Medicaid. OIG found that most States that pay
for covered outpatient drugs through MCO Medicaid had obtained the utilization data
needed to collect rebates, but that some had not yet collected rebates. OIG also found
that most States had processes in place to verify that MCO Medicaid payments for
340B-purchased drugs were excluded from rebate requests to drug manufacturers.31 The
review did not specifically address issues related to contract pharmacy arrangements.

METHODOLOGY

Scope
We interviewed 30 covered entities—15 community health centers and 15 DSHs—to
learn about how they operate and oversee their contract pharmacy arrangements. We did


27
   Ibid. 

28
   Ibid. 

29
   Ibid. 

30
   OIG, State Medicaid Policies and Oversight Activities Related to 340B-Purchased Drugs, 

OEI-05-09-00321, June 2011. 

31
   OIG, States’ Collection of Rebates for Drugs Paid Through Medicaid Managed Care Organizations, 

OEI-03-11-00480, September 2012. 



Contract Pharmacy Arrangements in the 340B Program (OEI-05-13-00431)
Page 8 – Mary K. Wakefield, Ph.D., R.N.


not include other types of covered entities (hemophilia treatment centers, family planning
clinics, etc.) in this study.

Data Collection and Analysis
To describe how covered entities operate and oversee their contract pharmacy
arrangements, we interviewed 30 covered entities and 8 administrators.

We selected a purposive sample of 15 community health centers and 15 DSHs from
HRSA’s covered entity database. We selected our sample to represent a diverse group of
covered entities, on the basis of the following considerations:

          number of covered entity sites (i.e., unique “parent” and “child” records);
          dispensing of 340B-purchased drugs to Medicaid beneficiaries;
          number of contract pharmacy arrangements; and
          location (i.e., rural versus urban, State).

The 30 covered entities in our final sample represent contract pharmacy arrangements
with 199 unique contract pharmacies. See Appendix A for a detailed description of the
selection process for our sample of covered entities.

We conducted structured interviews with staff from the selected covered entities
regarding their contract pharmacy arrangements. Our interviews focused on the covered
entities’ methods to prevent diversion and duplicate discounts, as well as their oversight
activities.

We also interviewed eight administrators to learn about how they assist covered entities
in preventing diversion and duplicate discounts in contract pharmacy arrangements. We
selected these administrators based on availability and prevalence in the industry. These
administrators worked with 20 of the 30 covered entities in our final sample. The
remaining 10 covered entities either worked with an administrator that we were unable to
interview or did not work with an administrator.

Limitations
The results of this memorandum report are limited to the 30 covered entities selected in
our purposive sample, and are not representative of or generalizable to other covered
entities. We did not verify the accuracy of covered entities’ or administrators’ interview
responses for this memorandum report, nor did we review the records of covered entities
or contract pharmacies to identify instances of diversion or duplicate discounts.

Standards
This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.




Contract Pharmacy Arrangements in the 340B Program (OEI-05-13-00431)
Page 9 – Mary K. Wakefield, Ph.D., R.N.


RESULTS

To prevent diversion in their contract pharmacy arrangements, covered entities in
our study use different methods to identify 340B-eligible prescriptions; in some
cases, this leads to differing determinations of 340B eligibility across covered entities
Covered entities in our sample reported different methods of identifying 340B-eligible
prescriptions to prevent diversion in their contract pharmacy arrangements. To prevent
diversion, covered entities must accurately identify 340B-eligible prescriptions filled at
their contract pharmacies. Some covered entities reported that they identify
340B-eligible prescriptions when the prescriptions are written, whereas others reported
that their administrators do so after the prescriptions are written.

Nine covered entities reported that they identify 340B-eligible prescriptions when the
prescriptions are written. These covered entities reported that they determine whether a
given prescription is 340B-eligible and indicate that determination on the prescription for
the contract pharmacy. Covered entities reported using a variety of tools to distinguish
340B-eligible prescriptions for their contract pharmacies, including printed barcodes for
paper prescriptions and designated values in notes fields for electronic prescriptions.

The remaining 21 covered entities reported that in at least one of their respective contract
pharmacy arrangements, their administrators identify 340B-eligible prescriptions after the
prescriptions are written. In such arrangements, these covered entities provide data to an
administrator, which identifies 340B-eligible prescriptions by comparing the data to
prescriptions filled at contract pharmacies. Covered entities reported that this method
prevents diversion.

Covered entities whose administrators identify 340B-eligible prescriptions after the
prescriptions are written provide their administrators with a variety of data types. For
covered entities in our sample, these data types most commonly include patient lists (e.g.,
names, dates of birth) and/or prescriber lists (e.g., National Provider Identifiers (NPI),
Drug Enforcement Administration numbers). Some covered entities reported providing
clinical information (e.g., diagnosis codes, procedure codes), lists of eligible sites, and/or
detailed patient encounter data. Some administrators reported that covered entities may
also provide them with electronic prescribing data. Additionally, covered entities
reported that they sometimes filter data before providing it to their respective
administrators (e.g., by limiting the prescriber list to only those who work exclusively at
the covered entity).

Administrators interviewed for this study use a variety of data-comparison methods to
identify 340B-eligible prescriptions after the prescriptions are written. Some
administrators reported that they customize their comparison methods to accommodate
covered entities’ preferences and/or data availability. For example, some covered entities
and administrators reported using time limits that govern how long a patient’s
prescription is identified as 340B-eligible following the patient’s most recent visit to the
covered entity. Additionally, one covered entity and one administrator reported that
340B eligibility is not always determined solely on the basis of automatic data


Contract Pharmacy Arrangements in the 340B Program (OEI-05-13-00431)
Page 10 – Mary K. Wakefield, Ph.D., R.N.


comparison; in some cases, prescriptions may be “queued” for the covered entity to
manually review and identify those it deems 340B-eligible.

The variety of data types and comparison methods used to identify 340B-eligible
prescriptions can result in differing determinations of 340B eligibility across covered
entities. In some cases, covered entities using different data types and/or comparison
methods categorize similar types of prescriptions differently (i.e., 340B-eligible versus
not 340B-eligible) in their contract pharmacy arrangements. Although our sample cannot
account for all possible combinations of data types and comparison methods, covered
entities and administrators did note several instances in which they would categorize
similar types of prescriptions differently. The four scenarios below illustrate the different
determinations of 340B eligibility that covered entities told us they would make for
specific types of prescriptions.



     Scenario 1: Nonexclusive physician

     A physician practices part time at a covered entity, but also has a private practice. The
     physician first sees an individual at the covered entity. On a separate occasion, the
     physician sees the same individual at his private practice and writes a prescription for
     the individual. The individual fills the prescription at the covered entity’s contract
     pharmacy.



One covered entity in our sample noted that it would automatically categorize the
prescription in Scenario 1 as 340B-eligible. This covered entity uses a list of all
prescribers to identify 340B-eligible prescriptions. Because the physician in Scenario 1
would be on the prescriber list, the prescription would be categorized as 340B-eligible,
even though it was written at the physician’s private practice (i.e., originated outside of
the covered entity).

Another covered entity in our sample noted that it would not categorize the prescription
in Scenario 1 as 340B-eligible. This covered entity also uses a prescriber list to identify
340B-eligible prescriptions, but the covered entity limits the prescriber list to only those
prescribers who work exclusively at the covered entity. Because the physician in
Scenario 1 would not be on the prescriber list (as he does not work exclusively at the
covered entity), the prescription would not be categorized as 340B-eligible.

A third covered entity in our sample noted that it may or may not categorize the
prescription in Scenario 1 as 340B-eligible, on the basis of a manual review. This
covered entity provides its administrator with a list of all prescribers who work at the
covered entity, but flags those prescribers who do not work exclusively at the covered
entity. Its administrator automatically categorizes prescriptions from exclusive
prescribers as 340B-eligible, but queues prescriptions from nonexclusive prescribers for
covered entity staff to review and categorize as 340B-eligible or not 340B-eligible.



Contract Pharmacy Arrangements in the 340B Program (OEI-05-13-00431)
Page 11 – Mary K. Wakefield, Ph.D., R.N.




     Scenario 2: Time limit after patient’s visit

     A physician sees an individual at a covered entity and writes a prescription for the
     individual. Four months after filling the original prescription, the individual refills the
     prescription at the covered entity’s contract pharmacy. The individual is not seen at
     the covered entity during those 4 months.



One covered entity in our sample noted that it would not categorize the refilled
prescription in Scenario 2 as 340B-eligible. This covered entity categorizes prescriptions
filled at its contract pharmacies as 340B-eligible only if they are filled within 60 days of
the patient’s most recent visit to the covered entity.

Several other covered entities in our sample noted that they would categorize the refilled
prescription in Scenario 2 as 340B-eligible. Some of these covered entities have longer
time limits regarding patient visits (e.g., 12 months) that would include the prescription in
Scenario 2. Alternatively, one of these covered entities has no limit as to how long after
the patient’s visit a prescription can be filled and still be categorized as 340B-eligible.



     Scenario 3: Prescription from a referred physician

     A physician sees an individual at a covered entity and refers the individual to a
     specialist who is not affiliated with the covered entity. The specialist writes a
     prescription for the individual, and the individual fills the prescription at the covered
     entity’s contract pharmacy.




Two covered entities in our sample noted that they would not categorize the prescription
in Scenario 3 as 340B-eligible. These covered entities use prescriber lists to identify
340B-eligible prescriptions. Because the specialist in Scenario 3 would not be on the
prescriber list (as he does not work at the covered entity), the prescription would not be
categorized as 340B-eligible.

One covered entity in our sample noted that it would categorize the prescription in
Scenario 3 as 340B-eligible. This covered entity also uses a prescriber list to identify
340B-eligible prescriptions. However, the covered entity’s administrator queues
prescriptions written by prescribers who are not on the prescriber list for the covered
entity to manually review and identify those it deems 340B-eligible. The covered entity
noted that during this manual review, it categorizes prescriptions as 340B-eligible if its
records indicate that the patient was referred to the prescriber. Because the covered
entity’s physician in Scenario 3 referred the individual to the specialist, the prescription
would be categorized as 340B-eligible, even though it originated outside of the covered
entity.


Contract Pharmacy Arrangements in the 340B Program (OEI-05-13-00431)
Page 12 – Mary K. Wakefield, Ph.D., R.N.




     Scenario 4: Matching prescription to clinical information

     A physician sees an individual at a covered entity for chest pain and writes the
     individual a prescription for a blood pressure medication (related to the chest pain).
     During that visit, the physician also writes the individual a prescription for a sleep
     medication (related to a previously diagnosed condition).



One covered entity in our sample noted that only the prescription for blood pressure
medication in Scenario 4 would be categorized as 340B-eligible. This covered entity’s
administrator uses clinical information from patients’ visits (i.e., diagnosis and procedure
codes) to identify 340B-eligible prescriptions. Specifically, the administrator identifies a
prescription as 340B-eligible only when it relates to one of the diagnosis or procedure
codes from the patient’s most recent visit. Because the prescription for blood pressure
medication in Scenario 4 relates to the individual’s diagnosis from his most recent visit
(i.e., chest pain), it would be categorized as 340B-eligible. Because the prescription for
sleep medication does not relate to that diagnosis, however, it would not be categorized
as 340B-eligible.

Many covered entities in our sample do not use clinical information from patients’ visits
to identify 340B-eligible prescriptions, and thus would likely categorize both
prescriptions in Scenario 4 as 340B-eligible. Because both prescriptions are written at
the covered entity by a prescriber who works for the covered entity, there would be no
basis on which to categorize the prescriptions differently without comparing them to
clinical information from the patient’s visit.

Twenty-two of thirty covered entities reported that to prevent duplicate discounts,
their contract pharmacies do not dispense 340B-purchased drugs to Medicaid
beneficiaries
Twenty-two of thirty covered entities reported preventing duplicate discounts by not
dispensing 340B-purchased drugs to Medicaid beneficiaries through their contract
pharmacies.32 Twenty of these covered entities reported that their contract pharmacies do
not dispense 340B-purchased drugs to either FFS Medicaid beneficiaries or MCO
Medicaid beneficiaries. The remaining two reported that their contract pharmacies do not
dispense 340B-purchased drugs to FFS Medicaid beneficiaries, but that they did not
know whether their contract pharmacies do so for MCO Medicaid beneficiaries.

To avoid dispensing 340B-purchased drugs to Medicaid beneficiaries through their
contract pharmacies, covered entities or their administrators identify prescriptions for
Medicaid beneficiaries and do not categorize them as 340B-eligible. Covered entities

32
  These covered entities may still dispense 340B-purchased drugs to Medicaid beneficiaries at their
in-house outpatient pharmacies and/or have physicians administer 340B-purchased drugs to Medicaid
beneficiaries at their eligible sites.


Contract Pharmacy Arrangements in the 340B Program (OEI-05-13-00431)
Page 13 – Mary K. Wakefield, Ph.D., R.N.


and administrators reported that they identify these prescriptions by comparing the
insurer’s BIN/PCN to the list of Medicaid BINs/PCNs for the State. While Medicaid
beneficiaries may still use contract pharmacies to fill prescriptions originating from the
covered entity, those prescriptions will be filled using the contract pharmacies’ own
non-340B-purchased drugs.

Administrators reported difficulties in identifying prescriptions for MCO Medicaid
beneficiaries. Administrators reported that it can be difficult to identify prescriptions for
MCO Medicaid beneficiaries in contract pharmacy arrangements. Specifically, they
reported that accurately identifying such prescriptions is difficult for two reasons:
insufficient information from State Medicaid agencies and BINs/PCNs that are not
exclusive to Medicaid.

First, administrators reported that BINs/PCNs for MCO Medicaid plans are not readily
available. Administrators reported that as a result, they must research which BINs/PCNs
represent MCO Medicaid plans, which is inefficient and may still result in incomplete
information. Without a complete list of MCO Medicaid BINs/PCNs, covered entities and
their administrators cannot be sure they are accurately identifying all Medicaid
prescriptions to avoid duplicate discounts.

Second, administrators reported that many insurers that operate both MCO Medicaid
plans and private insurance plans use the same BIN/PCN for both types of plans. One
administrator reported that in an attempt to avoid the risk of duplicate discounts, it
categorizes all prescriptions with BINs/PCNs used for MCO Medicaid plans as not
340B-eligible, even though some of those prescriptions may be for privately insured
patients and thus do not pose a risk of duplicate discounts. As a result, covered entities
may forgo potential savings from prescriptions for privately insured patients that could be
categorized as 340B-eligible without risking duplicate discounts.

Although 8 of 30 covered entities reported that their contract pharmacies dispense
340B-purchased drugs to Medicaid beneficiaries, 6 did not report a method to prevent
duplicate discounts. Eight of thirty covered entities reported that their contract
pharmacies dispense 340B-purchased drugs to FFS Medicaid and/or MCO Medicaid
beneficiaries. Only five of these covered entities reported notifying their State Medicaid
agency that they do so, and none reported notifying HRSA.

Six of the eight covered entities did not report a method to avoid duplicate discounts.
According to HRSA guidance, covered entities should not dispense 340B-purchased
drugs to Medicaid beneficiaries through their contract pharmacies unless they have made
an arrangement with their State Medicaid agency to prevent duplicate discounts. Two of
the six covered entities dispense 340B-purchased drugs to both FFS and MCO Medicaid
patients through contract pharmacies, whereas four dispense 340B-purchased drugs to
MCO Medicaid beneficiaries but not to FFS Medicaid beneficiaries.

Two of the eight covered entities reported methods for avoiding duplicate discounts. For
example, one covered entity instructs its contract pharmacies to include the covered


Contract Pharmacy Arrangements in the 340B Program (OEI-05-13-00431)
Page 14 – Mary K. Wakefield, Ph.D., R.N.


entity’s NPI on Medicaid claims for 340B-purchased drugs, per the State Medicaid
agency’s policy. The State Medicaid agency is thus able to identify those claims and
exclude the 340B-purchased drugs from its rebate requests to drug manufacturers.33

Eight covered entities do not offer the discounted 340B price to uninsured patients
in any of their contract pharmacy arrangements
Eight of thirty covered entities reported that they do not offer the 340B price to uninsured
patients in any of their contract pharmacy arrangements. Neither the 340B statute nor
HRSA guidance addresses whether covered entities must do so, but if covered entities do
not, their uninsured patients pay the full non-340B price for prescriptions filled at
contract pharmacies. Seven of these eight covered entities use administrators that
determine 340B eligibility after drugs are dispensed, which means that their contract
pharmacies do not know at the time they dispense the drugs whether patients’
prescriptions are 340B-eligible. As a result, the contract pharmacies do not know to
charge the discounted 340B price. Administrators may later identify uninsured patients’
prescriptions as 340B-eligible, but those patients will have already paid the full
non-340B price. All but one administrator reported being able to allow covered entities
to offer the discounted 340B price to uninsured patients at contract pharmacies; however,
some covered entities choose not to do so. Seven of the eight covered entities are DSHs.

Eighteen of thirty covered entities reported offering the discounted 340B price to
uninsured patients in at least one of their contract pharmacy arrangements.34 In a
commonly reported process, covered entities work with their administrators to provide
uninsured patients with a 340B discount card, which the patients present at contract
pharmacies so the pharmacies know to charge the discounted 340B price. Alternately, if
the covered entity identifies 340B-eligible prescriptions when the prescriptions are
written, the contract pharmacy knows for all patients which prescriptions are
340B-eligible, and can therefore charge the discounted 340B price to uninsured patients.
Of the 18 covered entities, 13 are community health centers.

For the remaining four covered entities in our sample, it is unclear whether their contract
pharmacies offer the discounted 340B price to uninsured patients.

Almost all covered entities in our study monitor their contract pharmacy
arrangements, but few have retained independent auditors as recommended in
HRSA guidance
Twenty-five of thirty covered entities reported that they monitor their contract pharmacy
arrangements internally to detect potential diversion or duplicate discounts. Covered
entities reported monitoring their contract pharmacy arrangements in a variety of ways,
including:

33
   The State Medicaid agency uses the NPI on contract pharmacies’ Medicaid claims to locate the covered
entity’s record in HRSA’s covered entity database. Because the covered entity has indicated in HRSA’s
covered entity database that it dispenses 340B-purchased drugs to Medicaid beneficiaries, the State
Medicaid agency excludes the drugs for those claims from its rebate requests to drug manufacturers.
34
   Some of these covered entities charge uninsured patients a fee based on a sliding scale in at least one of
their contract pharmacy arrangements; this sliding-scale fee may be lower than the 340B price.


Contract Pharmacy Arrangements in the 340B Program (OEI-05-13-00431)
Page 15 – Mary K. Wakefield, Ph.D., R.N.



      comparing drug dispensing records from their contract pharmacies to their
       internal records of prescriptions, patients, prescribers, and/or clinical information;
       and
      reviewing reports provided by administrators to look for Medicaid beneficiaries
       whose prescriptions were incorrectly identified as 340B-eligible.

Monitoring may be conducted on a regular schedule, or may be performed on an ad hoc
basis. Of the 25 covered entities that reported monitoring their contract pharmacy
arrangements internally, 17 reported doing so on a regular schedule and 8 reported doing
so on an ad hoc basis.

Only 7 of 30 covered entities reported that they have retained independent auditors for
their contract pharmacy arrangements, as recommended in HRSA guidance. Six of these
covered entities retain auditors in addition to doing their own monitoring as described
above, while one of these covered entities relies only on its auditor for oversight. HRSA
guidance states that while specific compliance methods are left up to the covered entity,
annual independent audits are expected.

Four covered entities reported that they neither monitor their contract pharmacy
arrangements nor retain independent auditors.

Some covered entities have detected problems through their oversight activities. Ten
covered entities reported that they have discovered instances that could be considered
diversion or that could have resulted in duplicate discounts in their contract pharmacy
arrangements.

These 10 covered entities reported that they did not notify HRSA of the instances because
their administrators or contract pharmacies had corrected the problems. Eight of the ten
covered entities reported that their administrators corrected the problems by changing the
status of filled prescriptions from 340B-eligible to not 340B-eligible. The other two
covered entities reported that their contract pharmacies were able to correct the problems.
Specifically, one of the two covered entities reported that its contract pharmacy
purchased non-340B drugs to replace the 340B-purchased drugs that were incorrectly
dispensed. The other covered entity reported that it did not know how its contract
pharmacy corrected the problem.




Contract Pharmacy Arrangements in the 340B Program (OEI-05-13-00431)
Page 16 – Mary K. Wakefield, Ph.D., R.N.


CONCLUSION

Contract pharmacy arrangements create complications in preventing diversion in the
340B Program, and the covered entities in our study reported addressing those
complications in different ways. Covered entities in our study reported different methods
of identifying 340B-eligible prescriptions, and in some cases their determinations of
340B eligibility differ from one covered entity to another for similar types of
prescriptions. This suggests a lack of clarity on how HRSA’s patient definition should be
applied in contract pharmacy arrangements. Covered entities appear to have differing
interpretations of what HRSA guidance requires; some may also have chosen to apply
more stringent criteria in the absence of a clear directive. Regardless, there is
inconsistency within the 340B Program as to which prescriptions filled at contract
pharmacies are treated as 340B-eligible.

Contract pharmacy arrangements also create complications in preventing duplicate
discounts. Most covered entities in our study reported that, to prevent duplicate
discounts, they do not dispense 340B-purchased drugs to Medicaid beneficiaries through
their contract pharmacies. However, administrators reported difficulties in identifying
beneficiaries covered by MCO Medicaid, and some covered entities that do dispense
340B-purchased drugs to Medicaid beneficiaries through their contract pharmacies did
not report a method to avoid duplicate discounts.

Furthermore, some covered entities in our study have implemented additional processes
to offer the discounted 340B price to uninsured patients at contract pharmacies, but others
have not. Neither the 340B statute nor HRSA guidance addresses whether covered
entities must offer the discounted 340B price to uninsured patients; however, if covered
entities do not, uninsured patients pay the full non-340B price for their prescription drugs
at contract pharmacies.

Moreover, most covered entities in our study do not conduct all of the oversight activities
recommended by HRSA. Although almost all covered entities reported monitoring their
contract pharmacy arrangements, the extent of such monitoring varies. Few covered
entities reported retaining independent auditors for their contract pharmacy arrangements
as recommended in HRSA guidance. Without adequate oversight, the complications
created by contract pharmacy arrangements may introduce vulnerabilities to the 340B
Program.

This memorandum report is being issued directly in final form because it contains no
recommendations. We are continuing to review contract pharmacy arrangements in the
340B Program and may include recommendations in an upcoming report if appropriate.
If you have comments or questions about this report, please provide them within 60 days.
Please refer to report number OEI-05-13-00431 in all correspondence.




Contract Pharmacy Arrangements in the 340B Program (OEI-05-13-00431)
Page 17 – Mary K. Wakefield, Ph.D., R.N.


APPENDIX A

Detailed Description of Process for Selecting Sample of Covered Entities

We selected a purposive sample of 30 covered entities—15 community health centers and
15 DSHs—from HRSA’s covered entity database. We chose to focus on a limited
sample so we could conduct in-depth interviews that captured the many details and
complexities of covered entities’ contract pharmacy arrangements.

We selected only covered entities with at least one contract pharmacy arrangement that
had been active for a year or more (i.e., since July 1, 2012, or before). We did so
because, according to initial conversations with stakeholders, it can take upwards of
6 months for contract pharmacy arrangements to become fully operational after being
established. HRSA’s covered entity database listed a total of 1,658 covered entities with
at least 1 contract pharmacy arrangement that had been active for a year or more. The
30 covered entities in our final sample represent contract pharmacy arrangements with
199 unique contract pharmacies.

To ensure a final sample of sufficient size, we selected an initial sample of 40 covered
entities. Our final sample included the first 30 covered entities that met our criteria and
with which we were able to schedule interviews.

We selected our sample to represent a diverse group of covered entities, on the basis of
the following considerations:

          Number of covered entity sites (i.e., unique “parent” and “child” records)

           We classified covered entities by 3 categories: those with only 1 site, those
           with 2–9 sites, and those with 10 or more sites. We selected at least one
           covered entity from each category.

       	 Dispensing of 340B-purchased drugs to Medicaid beneficiaries

           We classified covered entities by 3 categories: those for which all sites
           dispense 340B-purchased drugs to Medicaid beneficiaries, those for which
           some sites do so, and those for which no sites do so. We used the covered
           entity’s indication in HRSA’s covered entity database to make this
           classification. We selected only covered entities from the “all” or “some”
           categories, to increase the likelihood of including at least some covered
           entities that dispense 340B-purchased drugs to Medicaid beneficiaries through
           their contract pharmacies.

       	 Number of contract pharmacy arrangements (only those active for a year or
          more)

           We classified covered entities by 3 categories: those with only 1 contract


Contract Pharmacy Arrangements in the 340B Program (OEI-05-13-00431)
Page 18 – Mary K. Wakefield, Ph.D., R.N.


                  pharmacy arrangement, those with 2–9 contract pharmacy arrangements, and
                  those with 10 or more contract pharmacy arrangements. We selected at least
                  one covered entity from each category.

                 Location

                  We classified covered entities by three categories: rural; both rural and
                  nonrural (i.e., some sites were marked rural and some sites were marked
                  nonrural); and nonrural or no indication. We used the rural indicator in
                  HRSA’s covered entity database to make this classification.35 We selected at
                  least one covered entity from each category. We also attempted to select
                  covered entities from a variety of different States.

Table 1 shows the breakdown of the 1,658 covered entities with at least 1 contract
pharmacy arrangement active for a year or more, as well as the 30 covered entities in our
final sample, by the categories described above.

Table 1: All Covered Entities and Final Sample, By Category

                                                              Number of All        Number of Covered
 Category
                                                            Covered Entities   Entities in Final Sample

 Number of Covered Entity Sites
     1                                                                  816                          6
     2–9                                                                661                         16
     10+                                                                181                          8

 Dispensing of 340B-Purchased Drugs to Medicaid Beneficiaries

     All sites                                                          530                         23
     Some sites                                                         133                          7
     No sites                                                           995                          0

 Number of Contract Pharmacy Arrangements

     1                                                                  851                          8
     2–9                                                                629                         17
     10+                                                                178                          5

 Location

     Rural (DSH only)                                                    73                          5
     Both Rural and Nonrural (DSH only)                                   4                          2
     Nonrural or No Indication                                        1,581                         23

 Total                                                                1,658                         30
 Source: OIG analysis of HRSA’s covered entity database, 2013.




35
  The rural indicator in HRSA’s covered entity database applies only to DSHs. As such, only DSHs are
represented in the “rural” and “both rural and nonrural” classifications.


Contract Pharmacy Arrangements in the 340B Program (OEI-05-13-00431)
